No. ______________________
______________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________

JIMMIE BUTLER – PETITIONER
v.
UNITED STATES OF AMERICA – RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Sixth Circuit
__________________________________________________

PETITION FOR WRIT OF CERTIORARI

Mary Chartier
Chartier & Nyamfukudza, P.L.C.
Attorney for Petitioner – CJA Appointment
2295 Sower Boulevard
Okemos, MI 48864
517.885.3305
mary@cndefenders.com

Questions Presented
I.

The district court improperly designated Mr. Butler as a career
offender, and this was not harmless error. The district court
made a rote, less than one sentence, statement that it would vary
upward and sentence Mr. Butler the same regardless of his
career offender designation. Was the district court’s improper
designation of Mr. Butler harmless error and did the Court of
Appeals improperly affirm?

II.

The district court applied a four-level enhancement for
leadership. This was applied despite insufficient findings to
support the enhancement. Did the district court improperly
apply the enhancement and did the Court of Appeals improperly
affirm?

i

List of Parties
All parties appear in the caption of the case on the cover page.

ii

Table of Contents
Question Presented
List of Parties
Table of Contents
Index to Appendices
Table of Authorities Cited
Opinions Below
Jurisdiction
Constitutional and Statutory Provisions Involved
Statement of the Case
Reasons for Granting the Petition
I.
The trial court’s improper classification of Mr.
Butler as a career offender was not harmless error.
II. The district court improperly enhanced Mr. Butler
for a purported leadership role.
Conclusion

iii

i
ii
iii
iv
v
vi
vii
viii
1
2
2
8
11

Index to Appendices
Appendix A

United States v. Jimmie Butler, 1:17-cr-00148

(May 5, 2020)

iv

Table of Authorities Cited
Cases

Peugh v. United States, 569 U.S. 530; 133 S. Ct. 2072; 186 5

L. Ed. 2d 84 (2013)

United States v. Havis, 927 F.3d 382 (6th Cir. 2019)
6
United States v. Herrera-Zuniga, 571 F.3d 568 (6th Cir. 5
2009)

United States v. Jenkins, 854 F.3d 181 (2d Cir. 2017)
United States v. Johnson, 467 F.3d 559 (6th Cir. 2006)
United States v. Moncivais, 492 F.3d 652 (6th Cir. 2007)
United States v. Tucker, 473 F.3d 556 (4th Cir. 2007)
United States v. Walls, 546 F.3d 728, 735 (6th Cir. 2008)
United States v. Warren, 771 Fed. Appx. 637 (6th Cir. 2019)
United States v. Wright, 747 F.3d 399 (6th Cir. 2014)

7
6
10, 11
6
10
5
9

Statutes
18 U.S.C. § 3553(a)(1)
21 U.S.C. § 841(a)(1)
21 U.S.C. § 841(b)(1)(B)

7
3
3

Sentencing Guidelines
Section 3B1.1(a)
Section 4B1.1(a)
Section 4B1.2(b)

8
2
2, 3

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review
the judgment below.

Opinions Below
The opinion of the United States Court of Appeals for the Sixth
Circuit is unpublished. It is attached as Appendix A.

vi

Jurisdiction
The date on which the United States Court of Appeals for the Sixth
Circuit decided Mr. Butler’s case was May 5, 2020. No petition for
rehearing was filed. The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).

vii

Constitutional and Statutory Provisions Involved
18 U.S.C. § 3553(a)(1)
21 U.S.C. § 841(a)(1)
21 U.S.C. § 841(b)(1)(B)

viii

Statement of the Case
Jimmie Butler pleaded guilty to count one in the second
superseding indictment. (Second Superseding Indictment, RE 215, Page
ID # 1161-1162.) The offense was conspiracy to distribute and possess
with intent to distribute heroin, cocaine, and cocaine base. (Second
Superseding Indictment, RE 215, Page ID # 1161-1162.) Despite
objection, the district court held that Mr. Butler was a career offender,
and it held that the drug amount listed in the presentence investigation
report was correct. (Sentencing Transcript, RE 267, Page ID # 16411642.) The court further applied a four-level enhancement to Mr. Butler
for being a leader or organizer of the conspiracy. (Sentencing Transcript,
RE 267, Page ID # 1647-1648.) Mr. Butler’s final guideline range was 262
to 327 months. (Sentencing Transcript, RE 267, Page ID # 1648.) The
court sentenced Mr. Butler to 262 months. (Sentencing Transcript, RE
267, Page ID # 1670.)
The United States Court of Appeals for the Sixth Circuit held that
the court improperly classified Mr. Butler as a career offender. (Opinion,
RE 270, Page ID # 1682, 16851-1686). But the court held that the district
court did not err because it articulated why it would give Mr. Butler the

1

same sentence even if he was not a career offender. (Opinion, RE 270,
Page ID # 1682, 1686.) Thus, the error was harmless. (Opinion, RE 270,
Page ID # 1682.) The court also held that the leadership enhancement
was properly applied and that the court adequately explained its
rationale for the one-level upward departure. (Opinion, RE 270, Page ID
# 1689-1690.)
Reasons for Granting the Petition
I.

The trial court’s improper classification of Mr. Butler as a career
offender was not harmless error.
The district court sentenced Mr. Butler as a career offender.

(Sentencing Transcript, RE 267, Page ID # 1642.) Section 4B1.1(a) of the
United States Sentencing Guidelines states, “A defendant is a career
offender if (1) the defendant was at least eighteen years old at the time
the defendant committed the instant offense of conviction; (2) the instant
offense of conviction is a felony that is either a crime of violence or a
controlled substance offense; and (3) the defendant has at least two prior
felony convictions of either a crime of violence or a controlled substance
offense.”
Section 4B1.2(b) of the United States Sentencing Guidelines states,
“The term ‘controlled substance offense’ means an offense under federal
2

or state law, punishable by imprisonment for a term exceeding one year,
that prohibits the manufacture, import, export, distribution, or
dispensing of a controlled substance (or a counterfeit substance) or the
possession of a controlled substance (or a counterfeit substance) with
intent to manufacture, import, export, distribute, or dispense.”
Mr. Butler pleaded guilty to conspiracy to distribute and possess
with intent to distribute heroin, cocaine, and cocaine base, in violation of
21 U.S.C. §§ 841(a)(1) & 841(b)(1)(B). This conspiracy offense does not
meet the definition for a “controlled substance offense” under the
Sentencing Guidelines. However, “conspiracy” offenses are listed in the
Commentary to the Sentencing Guidelines. Application Note One states
the following, “‘Crime of violence’ and ‘controlled substance offense’
include the offenses of aiding and abetting, conspiring, and attempting to
commit such offenses.”
The United States Court of Appeals for the Sixth Circuit noted that
the government conceded that Mr. Butler was not a career offender and
had been improperly classified as such. (Appendix A, 1.) But it held that
this was harmless error. (Appendix A, 1.) At sentencing, the district court
had stated that even if Mr. Butler was not a career offender, it would

3

depart upward and sentence him to the same term in custody.
(Sentencing Transcript, RE 267, Page ID # 1671.) The district court
stated that it would vary upward one level if Mr. Butler were not a career
offender and sentence him to the same 262 months. (Sentencing
Transcript, RE 267, Page ID # 1671.) The court stated if Mr. Butler were
not a career offender, he would be offense level 31 with a criminal history
category of VI, which would result in a guideline range of 188 to 235
months. (Sentencing Transcript, RE 267, Page ID # 1671.) The court said
it would go down the sentencing table one level to offense level 32 and
criminal history category VI for an advisory guideline range of 210 to 262
months. (Sentencing Transcript, RE 267, Page ID # 1671.) The court said
that “considering all of the 3553 factors, as well as offense seriousness,
just punishment, the Court would find that a sentence at the top end of
that range would be the appropriate sentence.” (Sentencing Transcript,
RE 267, Page ID # 1671.)
But the district court may not just depart or vary from the
guidelines without first giving an adequate explanation for the departure
or variance. In the instant case, contrary to the determination by the
Court of Appeals, the district court merely recited generalized factors and

4

reasons—there was no adequate explanation for why it would give an
above-guidelines sentence if Mr. Butler was not a career offender. A
district court that varies or departs from the guidelines must provide an
adequate

explanation

for

the

variance

or

departure.

Peugh

v. United States, 569 U.S. 530, 543; 133 S. Ct. 2072; 186 L. Ed. 2d 84
(2013). This explanation is needed because sentences that deviate from
the

Sentencing

Guidelines

are

afforded

no

presumption

of

reasonableness. United States v. Herrera-Zuniga, 571 F.3d 568, 582
(6th Cir. 2009).
The significance of the lack of explanation is on display in this case.
Mr. Butler, as well as the appellate courts, have no basis from which to
glean the district court’s rationale for review. See United States v.

Warren, 771 Fed. Appx. 637, 641-642 (6th Cir. 2019). In Warren, the
district court ratified its earlier rationale for the sentence and provided
multiple reasons for the upward variance, including the repeated use of
guns. Id. at 640. In contrast, the district court case in this case merely
said that it would impose a sentence at the top end of the guidelines
“considering all of the 3553 factors, as well as offense seriousness, just
punishment . . . .” (Sentencing Transcript, RE 267, Page ID # 1671.) There

5

was no proper justification for why the future guideline range that would
be scored if Mr. Butler were not a career offender would be inadequate.
See United States v. Tucker, 473 F.3d 556, 564-565 (4th Cir. 2007). The
district court did not a sufficient explanation about the reason for a
hypothetical proposed future departure.
The error was not harmless error because Mr. Butler’s substantial
rights have been affected by the district court’s error in sentencing Mr.
Butler as a career offender. See United States v. Johnson, 467 F.3d 559,
564 (6th Cir. 2006). The government has not demonstrated with certainty
that the error at sentencing did not cause Mr. Butler to receive a more
severe sentence. Id. The district merely recited generalized factors and
reasons without providing an adequate explanation for why it would give
an above-guidelines sentence if Mr. Butler was not a career offender.
A brief discussion of United States v. Havis, 927 F.3d 382 (6th Cir.
2019), and its impact on sentencing is not the equivalent of a sufficient
explanation under the law of why the court would have sentenced Mr.
Butler regardless of his status as a career offender. The district court
stated what it would do, but then give a cursory analysis stating that
“considering all of the 3553 factors, as well as offense seriousness, just

6

punishment, the Court would find that a sentence at the top end of that
range would be the appropriate sentence.” (Sentencing Transcript, RE
267, Page ID # 1671.) This superficial statement does not meet the
requirements under the law to justify an upward departure and to
conclude the sentencing error was harmless.
A district court is required to carefully consider on an
individualized basis “the nature and circumstances of the offense and the
history

and

characteristics

of

the

defendant.” 18

U.S.C.

§

3553(a)(1). “Additional months in prison are not simply numbers. Those
months have exceptionally severe consequences for the incarcerated
individual. They also have consequences both for society which bears the
direct and indirect costs of incarceration and for the administration of
justice which must be at its best when, as here, the stakes are at their
highest.” United States v. Jenkins, 854 F.3d 181, 192 (2d Cir. 2017).
Accordingly, Mr. Butler respectfully requests that this Court grant his
petition to provide guidance to courts about the proper explanation that
is needed in this critical area.

7

II.

The district court improperly enhanced Mr. Butler for a
purported leadership role.
The district court enhanced Mr. Butler four levels for being an

organizer or leader of the conspiracy. (Sentencing Transcript, RE 267,
Page ID # 1647-1648.) The Sentencing Guidelines provide that, “[b]ased
on the defendant’s role in the offense,” the Court may increase a
defendant’s offense level four levels if “the defendant was an organizer or
leader of a criminal activity that involved five or more participants.”
U.S.S.G. § 3B1.1(a).
Application Note Two of the Commentary states as follows:
To qualify for an adjustment under this section, the
defendant must have been the organizer, leader, manager, or
supervisor of one or more other participants. An upward
departure may be warranted, however, in the case of a
defendant who did not organize, lead, manage, or supervise
another participant, but who nevertheless exercised
management responsibility over the property, assets, or
activities of a criminal organization.
And Application Note Four of the Commentary states as
follows:
In distinguishing a leadership and organizational role
from one of mere management or supervision, titles such as
“kingpin” or “boss” are not controlling. Factors the court
should consider include the exercise of decision making
authority, the nature of participation in the commission of the
offense, the recruitment of accomplices, the claimed right to a
8

larger share of the fruits of the crime, the degree of
participation in planning or organizing the offense, the nature
and scope of the illegal activity, and the degree of control and
authority exercised over others. There can, of course, be more
than one person who qualifies as a leader or organizer of a
criminal association or conspiracy. This adjustment does not
apply to a defendant who merely suggests committing the
offense.
Even if Mr. Butler played an essential role in the offense, this is not
the equivalent of exercising managerial control over other participants.
See United States v. Wright, 747 F.3d 399, 412 (6th Cir. 2014). Many
participants admitted that they were involved with other suppliers,
including before they ever knew or became involved with Mr. Butler.
(Sentencing Transcript, RE 267, Page ID # 1643-1644.) Thus, while Mr.
Butler was supplying controlled substances to some individuals, he was
not exercising a managerial or supervisorial role that warrants a fourlevel enhancement. Those individuals were free to purchase controlled
substances from whomever they chose and to possess them, use them, or
distribute them in whatever manner they chose.
The fact is that those who participated in drug distribution did so
of their own volition. They were all adults who made their own choices.
While people were eager to shift as much blame as possible to Mr. Butler,
this does not mean their stories should be believed. The district court’s
9

findings regarding this matter were bereft of specificity. Unlike in United

States v. Walls, 546 F.3d 728, 735 (6th Cir. 2008), the district court did
not make detailed findings about the basis of the enhancement on the
record. The district court made a generalized record by citing to the
presentence investigation report. (Sentencing Transcript, RE 267, Page
ID # 1647-1648.) The court stated that Mr. Butler recruited at least one
person into the conspiracy and interacted with others, but there was no
explanation about who the court was referring to or what interactions
would rise to the level of being an organizer or leader. (Sentencing
Transcript, RE 267, Page ID # 1647.) In contrast to Walls, 546 F.3d at
735, the district court did not mention—let alone detail—that Mr. Butler
ever received a substantial share of the profits or manipulated profits.
Likewise, there was no detail about Mr. Butler being at the top of an
organization structure. Cf. id. at 735. The district court did not detail
factual findings in a manner that can be sufficiently reviewed by an
appellate court.
The level of detail that is sufficient is again referenced in United

States v. Moncivais, 492 F.3d 652, 660 (6th Cir. 2007). The district court
in Moncivais referenced a specific telephone conversation and that in this

10

conversation the defendant was giving an order. Id. The district court
also made specific findings that the defendant had a large stake in the
profitability of the organization. Id. In contrast, the district court
erroneously made only general references that Mr. Butler was a leader
and would receive the four-level enhancement. Accordingly, Mr. Butler
respectfully requests that this Court grant his petition.
Conclusion
Mr. Butler was improperly sentenced and guidance from this Court
would assist in the consistent application of the law for numerous
defendants. Accordingly, Mr. Butler respectfully requests that this Court
grant his petition.
Respectfully submitted,
Chartier & Nyamfukudza, P.L.C.
09/10/2020
Date

/s/MARY CHARTIER
Mary Chartier

11

